               AUDIT REPORT
                  13-01




           Management Oversight:
Federal Employees’ Compensation Act Operations

               January 15, 2013
Date
January 15, 2013
To
Chief Human Capital Officer
From
Inspector General
Subject
Audit Report–Management Oversight: Federal Employees’ Compensation Act
Operations
Report Number 13-01

Enclosed please find the subject final report. Please refer to the “Results in Brief” for
the overall audit results. Our evaluation of your response has been incorporated
into the body of the report and the response is included in its entirety at
Appendix B. We consider management’s comments responsive to all of the
recommendations. The recommendations are resolved and will remain open
pending our verification of the completion of the agreed upon actions.

We appreciate the courtesies extended to the audit staff. If you have any questions
or comments about this report, please do not hesitate to contact me at
(202) 512-0039.




MICHAEL A. RAPONI
Inspector General

Enclosure

cc:
Acting Public Printer
Assistant Public Printer, Operations
General Counsel
Contents

Introduction .................................................................................................................................................... 1

Results in Brief .............................................................................................................................................. 2

Background .................................................................................................................................................. 4

Results and Recommendations ............................................................................................................ 8

Appendix A – Objectives, Scope, and Methodology ...................................................................... 14

Appendix B – Management’s Response ........................................................................................... 16

Appendix C – Status of Recommendations ...................................................................................... 20

Appendix D – Report Distribution ....................................................................................................... 21

Major Contributors.................................................................................................................................... 22
                                  Office of Inspector General

Report Number 13-01                                       January 15, 2013


                           Management Oversight:
                Federal Employees’ Compensation Act Operations

Introduction

The FECA provides wage loss compensation, medical care, and survivors’ benefits to
federal workers for employment-related traumatic injuries and occupational
diseases 1. Traumatic injuries are wounds or other conditions caused by an external
force, stress, or strain within a single day or work shift. An employee spraining their
ankle at work would be an example of a traumatic injury. An occupational disease is
a physical condition produced by the work environment over a longer period.
Developing carpal tunnel syndrome would be an example of an occupational
disease. FECA also provides for payment of benefits to dependents if a work-related
injury or disease causes an employee’s death.

GPO has financial and management responsibilities for its own FECA cases. The
costs of FECA benefits are initially paid by the U.S. Department of Labor (DOL)
through the Employee Compensation Fund which is administered by the of Office of
Workers' Compensation Programs (OWCP). At the end of each fiscal year (FY), GPO
reimburses the FECA program for their employees' FECA expenses through a
process known as chargeback. Within GPO, the Workers’ Compensation Services
(WCS) is responsible for administering the FECA program. Between July 2011 and
March 2012, GPO paid $4.4M on 201 cases under the DOL’s FECA program. This
does not include payments made for the first 45 days when a claimant is in a
Continuation of Pay status.

The objective of our audit was to assess GPO’s monitoring of key aspects of its FECA
operations related to returning claimants to work. We also reviewed training of
GPO personnel, such as effort to ensure supervisors understand their
responsibilities under FECA and the reliance of information technology to
administer the program.

To accomplish our objective, we analyzed the DOL chargeback report as of March
2012 and program information as of October 2012, at the GPO Central Office in
Washington, D.C. At the time of our review, the March 2012 DOL chargeback report
was most current report available. We conducted interviews with employees in the
WCS pertaining to monitoring, training, and the use of information technology in
1
    FECA is codified at 5 U.S.C. § 8101 et seq.
                                                  1
support of the administration of the FECA program. We reviewed related laws,
regulations, and GPO management directives. We reviewed documents and reports
pertaining to monitoring, such as program-wide status related to (1) marital status,
(2) eligibility of dependents, (3) modified, limited, and light duty assessments, (4)
medical updates, (5) medical second opinions, (6) chargebacks, (7) vocational
training, and (8) assisted reemployment. We reviewed training records and
information technology used to support the administration of GPO’s FECA program.
We did not test or verify information contained in individual case files. We plan to
perform case file reviews in future audits of GPO’s administration of its FECA
operations.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Our objective, scope, methodology, and criteria are
detailed in Appendix A

Results in Brief

Since our initial review in 2002, GPO has made significant progress with its FECA
program. We found that the personnel specialists we worked with were informed
and actively working on numerous cases.

We identified opportunities where additional action could strengthen the
monitoring of FECA operations. At a minimum, monitoring FECA should include: (1)
updating the current marital status of claimants, (2) evaluation of the continued
eligibility of the claimants dependents, (3) seeking opportunities to bring claimants
back on a modified, limited, or light duty assignment, (4) receiving medical updates
on a regular basis, (5) obtaining second medical opinions where the record
indicates the claimant has some potential of eventually returning to work, (6)
responding to requests for vocational training, and (7) requesting employees be
included in OWCP’s Assisted Reemployment program. While GPO may perform
many of these duties on an ad hoc basis, it could not demonstrate it monitors FECA
on a program-wide basis.

GPO could also strengthen business unit supervisors understanding of their
responsibilities under FECA and expand its use of information technology to
administer the program.

We attribute this to current practices and procedures not fully addressing
monitoring, supervisory FECA training, and information technology used to
administer FECA program. Taking these actions may provide opportunities to
better assess overall risk of improperly paying compensation and medical costs and
                                          2
may reduce the amount paid or result in the removal of claimants from the periodic
roll and to re-employment. For example, while we did not review claim files, we
observed four instances where GPO missed opportunities to return claimants to
work resulting in $267,161 worth of FECA compensation paid while each claimant
could have returned to work.

RECOMMENDATIONS

We recommend the Chief Human Capital Officer further strengthen FECA operations
by:

1. Developing procedures and a standardized program-wide monitoring process to
   routinely monitor adherence to FECA requirements such as: (1) updating the
   marital status of claimants, (2) evaluating continued eligibility of the claimants
   dependents, (3) seeking opportunities to place claimants on a modified, limited,
   or light duty assignment, (4) receiving medical updates on a regular basis, and
   (5) obtaining second medical opinions where the record indicates the claimants
   has some potential of eventually returning to work, (6) responding to requests
   for vocational training, and (7) requesting employees be included in OWCP’s
   Assisted Reemployment program.

2. Strengthen business unit supervisors understanding of their responsibilities
   under FECA by developing and implementing a formal training program.

3. Expanding the use of information technology to administer the program such as
   the use of DOL’s Employees’ Compensation Operations and Management Portal
   electronic software.

Management’s Response

GPO management concurred with the recommendations.

We consider management’s planned action responsive. The recommendations are
resolved and will remain open until planned action is complete.




                                          3
BACKGROUND

FECA provides cash and medical benefits to federal employees who suffer
temporary or permanent disabilities resulting from work-related injuries or
diseases. DOL adjudicates and approves claims submitted by employees. DOL
manages distribution of program benefits in the form of compensation for lost
wages, schedule awards and medical benefits. DOL provides these benefits from a
compensation fund that federal departments and agencies pay into with
appropriations.

One goal of FECA is to return beneficiaries to work as soon as possible. However,
because of the requirements of this law, this process can take a significant amount
of time. Once personnel specialists in the WCS office are notified by DOL that a
claimant is eligible to return to work, the specialist attempts to locate a position. If a
suitable position is found, the specialist informs DOL of the details of the position.
DOL then has 30 days to verify that the position is appropriate for the beneficiary.
After that happens, the specialist makes the offer. The beneficiary then has 30 days
to respond. If the beneficiary accepts the position a start date is determined. If the
beneficiary does not accept the position, they have another 30 days to appeal the
decision and the process continues.

Known Risks Associated with the FECA Program

Federal agencies’ Inspectors General and the Government Accountability Office
(GAO) have identified long-standing programmatic deficiencies government-wide
that may make the FECA program vulnerable to fraud and abuse.

GAO reported 2 that beginning with its 2004 Performance and Accountability Report
and every year since, DOL has indicated that adequately overseeing the FECA
program was one of its chief management challenges. Their report found that most
agencies under the FECA program reported continuing management challenges,
including oversight. The report stated that “the impact of insufficient oversight at
the departmental level has been significant”. According to GAO, prior Inspector
General FECA reports have identified four areas of management challenges.

Oversight—the impact of insufficient oversight at the departmental level has been
significant. Oversight could be strengthened with a variety of techniques including
active case management practices such as periodically reviewing and updating
information on long-term disability cases or intervening early through scheduled
interactions when new beneficiaries are placed on the rolls.




2GAO-12-508R, Federal Employees’ Compensation Act: Status of Previously Identified Management
Challenges, dated March 21, 2012.
                                              4
Information Technology—information technology was a critical challenge for
agencies, with some reporting they did not have an adequate internal system to
administer the program.

Legislative Reform—Congress is currently considering several legislative proposals
that would reform the FECA program. It was stated that because the program had
not been reformed in over three decades, the program did not include market-based
characteristics such as maximum time and benefit limits, settlement and buyout
options.

Other Factors— the economy, workplace characteristics, and rising medical costs to
a lesser extent, are other factors that challenge departments’ and agencies’ ability to
manage program.

Prior GPO OIG Reports on the FECA Program

The OIG completed an audit of the GPO FECA Program in September 2009 3. The
audit evaluated the adequacy of controls over GPO’s FECA Program.

OIG reported no indication that the program was not being operated in accordance
with appropriate Federal guidelines, regulations, and directives. Although
employee claims for benefits were generally supported with the required
documentation, there were several areas where procedural and policy
improvements could be made to further enhance and strengthen the GPO’s FECA
Program. A total of two recommendations were made to management.

The OIG recommended that GPO contact the DOL liaison and schedule regular
periodic meetings with OWCP to discuss any issues related to workers’
compensation cases. In addition, identification of any errors related to claimant’s
data should be promptly communicated to OWCP. The OIG also recommended that
GPO revise FECA Injury Case Summary forms for each case file. Both
recommendations have been closed.

In a 2002 audit of the FECA Program, the OIG recommended that priority should
also be given to completing Draft Instruction 665.5A, and incorporating the
suggestions of all departments with involvement in the FECA Program, so that a firm
basis of duties and functions is clearly established. It was reported, that on
September 3, 2008, GPO finalized and published Directive 665.5B, “GPO Workers’
Compensation Program.” The directive outlines authorities, establishes policies, and
describes responsibilities for the administering and managing of the FECA Program.
The directive also formally outlines the roles and responsibilities of management
officials and employees as well as the various commitments related to the program.



3   OIG Report Number 09‐14, GPO’s Workers Compensation Program, dated September 30, 2009.
                                                5
Overview of the FECA ChargeBack Process

FECA is financed by the Employees' Compensation Fund, which consists of funds
appropriated by Congress through a "chargeback" to the various agencies. Each year
the Secretary of Labor furnishes GPO a statement of payments from the fund for
GPO employees. GPO includes FECA costs in its budget requests and the resulting
sums are deposited in the fund. Below is the general chargeback process.

•   Injured worker files a FECA claim. OWCP evaluates and makes determination of
    payment. Payment is made to injured worker.
•   OWCP provides quarterly chargeback reports of claim payments to GPO. This
    provides preliminary indication of costs as well as gives GPO a chance to dispute
    any costs attributed to GPO.
•   By August 15 of each year, OWCP is required to send an Annual Statement (made
    up of the quarterly reports and any changes) and a bill summarizing the total
    FECA costs attributable to GPO under the prior chargeback year (July 1 to June
    30).
•   Upon receipt of the bill, GPO includes the amount shown on the chargeback bill
    in its budget for the following fiscal year (GPO’s fiscal year).
•   Congress approves the budget request.
•   Agency reimburses OWCP for the charges assessed for the prior chargeback year
    in October.

Occupational Safety and Health Administration (OSHA) Reported Injury Case Rates

According to statistics from the DOL’s OSHA, GPO had an injury and illness case rate
of 2.27 per 100 employees as of the 3rd Quarter of FY 2012. OSHA projected a year
end injury and illness case rate of 3.03 per 100 employees.

The Total Case numbers are derived from claims submitted to OWCP with "case
creates" dates of October 1, 2011 through June 30, 2012. The Total Case Rate is
calculated by dividing the number of total time cases by the number of employees.
The resulting number is then multiplied by 100, for a rate per 100 employees.

While OSHA estimated an increase in the injury and illness case rate, GPO has
reduced the size of its workforce which may mitigate any estimated increase.

DOL Guidelines

DOL Publication CA-8-1, Injury compensation for Federal Employees, revised 2009,
recommends “active management of workers’ compensation programs by agency
personnel” to contain costs. This includes actions such as: reviewing and
maintaining documentation, monitoring medical information and staying in touch
with injured employees, identifying suitable jobs and returning them to work as
soon as possible. The OWCP also provides an overview of FECA to supervisors and
                                          6
managers that can be tailored to the individual agency and held at the requesting
agency’s facility.

Policies and Procedures

GPO Directive 665.5B, “GPO Workers’ Compensation Program,” dated September 3,
2008, outlines authorities, establishes policies, and describes responsibilities for the
administering and managing of the GPO’s FECA Program. The directive also
formally outlines the roles and responsibilities of GPO management officials and
employees as well as the various commitments related to the program.

Office of Management and Budget Circular No. A-123, Management’s Responsibility
for Internal Control, dated December 21, 2004, requires managers to develop and
maintain effective internal controls. Effective internal controls provide assurance
that significant weaknesses in the design or operation of internal controls that could
adversely affect the agency’s ability to meet its objectives would be prevented or
detected in a timely manner.

GAO Standards for Internal Controls in the Federal Government, November 1999.
According to the GAO, ongoing monitoring occurs in the course of normal
operations. It is performed continually and is ingrained in the agency’s operations.
It includes regular management and supervisory activities, comparisons,
reconciliations, and other actions people take in performing their duties.




                                           7
Results and Recommendations

While GPO has made significant progress with its FECA program, we believe
additional opportunities exist to strengthen controls over operations. For example,
GPO could increase monitoring of FECA at the business unit level by: (1) updating
the marital status of claimants, (2) evaluating the continued eligibility of the
claimants dependents, (3) seeking opportunities to bring claimants back on a
modified, limited, or light duty assignment, (4) receiving medical updates on a
regular basis, (5) obtaining second medical opinions where the record indicates the
claimant has some potential of eventually returning to work, (6) responding to
requests for vocational training, and (7) requesting employees be included in
OWCP’s Assisted Reemployment program.

Also, GPO has not developed a formal training program to strengthen its business
unit supervisors understanding of their responsibilities under FECA and expand its
use of information technology to administer the program.

We attribute this to lack of procedures necessary to provide a framework to
comprehensively monitor, provide training to business unit supervisors, and use
available information technology to administer the FECA program. Procedures
should include the specific methods used to implement policies on a day to day
basis. For example, only one of the procedures called Sick Injured Administrative
includes a requirement for a written report summarizing the information and work
performed. Some of the procedures we reviewed were slide presentations
providing information on a given topic.

Taking these actions may provide opportunities to better assess overall risk of
improperly paying compensation and medical costs and may reduce the amount
paid or result in the removal of claimants from the periodic roll and to re-
employment. For example, while we did not review claim files, we observed four
instances where GPO missed opportunities to return claimants to work resulting in
$267,161 worth of FECA compensation paid while each claimants could have
returned to work.

Enhanced Program-wide Monitoring Needed

Because it is not required, only a limited amount of program-wide or summary of
activity information is developed and monitored. Below are several areas within
FECA operations where GPO could gain a better understanding of its program
through program-wide monitoring.

Program-wide tracking of claimant’s marital status and the eligibility of dependent
children when claimant’s payments are at the 75 percent rate is needed. GPO could
not demonstrate it monitored claimant’s marital status and the eligibility of
dependent children. If claimants are unable to return to their duties as a result of
                                          8
the injury, they are generally entitled to up to 45 days of continuation of pay, which
entails GPO continuing to pay the claimants regular pay. Continuation of pay is
authorized for traumatic injury but not for occupational illnesses or other diseases.
If claimants are still unable to return to work at the end of the 45 days, they are
entitled to begin receiving compensation for lost wages.

Beneficiaries in death cases are required to annually submit a report regarding their
marital status and continuing eligibility of dependent children. A beneficiary is
required to submit proof of continuing eligibility for children over the age of 18 who
are students or who are physically or mentally incapable of self-support.

Monitoring claimant’s ability to perform modified, limited, or light duty assignments
could reduce program costs. GPO could not demonstrate it monitors on a program-
wide basis the effective use of modified, limited, or light duty assignments. While it
is difficult to demonstrate that a claimant is ready to return to full duty, it is easier to
prove that claimants are capable of returning to modified, limited, or light duty
assignments.

In order to return claimants back to work as soon as appropriate, GPO must not only
routinely monitor the condition of the injured employees receiving FECA benefits,
they must also coordinate with business unit supervisors, the claimant, OWCP’s
registered nurse, and the claimant’s physician in order to create a light or modified
duty assignment when applicable. Without this coordination, GPO may miss
opportunities to return claimants back to work, thus allowing the FECA benefit
expenses to increase while losing employee experience and production.

A modified, limited, or light duty assignment must be detailed in writing and be
well-defined, meet the restrictions as prescribed by the physician, and be approved
by the OWCP Claims Examiner. When a claimant has partially or fully overcome an
injury or disability, GPO should make every effort toward assigning the employee to
limited duty consistent with the claimant’s medically defined work limitation. The
duty assignment can be developed for part-time or full-time work. Once the duty
assignment is developed and approved, the claimant has 30 days to accept or reject
the assignment and return to work.

GPO management faces a difficult situation in returning claimants back to work
since claimants may receive more net income from FECA benefits than from earned
wages. This disparity occurs because FECA benefits are not subject to taxes for
federal and state income, social security and Medicare. Thus, claimants may be
reluctant to return to work and may challenge whether they are physically capable
of doing so. Managers, supervisors, injured workers, and Compensation Specialists
should work together to develop assignments. There may also be a need to clarify
issues related to grade, pay, qualifications and other Federal benefits.



                                             9
Program-wide monitoring of the medical status of claimants may improve the
timeliness of a claimants return to work. GPO could not demonstrate it monitored
program-wide claimant’s medical status and medical second opinions to ensure
claimant’s return to work as soon as possible. FECA requires, at a minimum, annual
medical documentation to determine if a claimant is still entitled to benefits under
this provision. Medical documentation is used to determine if a light duty
assignment can be offered to the claimant. In order to make a job offer, the agency
must conduct active case file monitoring and obtain medical evidence that would
otherwise describe the injured workers’ medical restrictions.

Federal employees involved in work-related incidents are entitled to have medical
treatment by a licensed physician of their choosing paid for by the FECA program.
GPO may contact the attending physician to obtain additional information about the
claimant’s medical condition or capability to perform work. GPO can use this
information to identify claimants who may be able to return to work at full capacity
or at an alternative capacity. OWCP has the authority to request a medical
examination to obtain a second opinion by a physician it designates to evaluate the
original medical prognosis or to determine whether a claimant remains entitled to
benefits.

In addition to requesting and reviewing the results of a second opinion medical
examination from the agency’s designated physicians, we believe GPO also should
consistently obtain and review updated medical documentation. Periodic medical
updates about the claimant are necessary to evaluate whether the claimant’s
medical condition has improved enough to return to work.

We were told in general GPO does not initiate second medical opinions. While
second medical opinions are not required in all cases, these examinations can be
beneficial in evaluating cases where the record indicates the claimant has some
potential of eventually returning to work. In our opinion, GPO should not be
reluctant to seek second medical examinations in these cases, which could result
both in returning experienced and trained personnel to active duty and in reducing
long term FECA expenditures.

Monitoring opportunities to initiate proactive Vocational Rehabilitation Services and
Assisted Reemployment may return employees to work. GPO could not demonstrate it
monitored program-wide claimants in order to proactively identify opportunities to
explore the use of Vocational Rehabilitation Services and Assisted Reemployment

FECA provides for vocational rehabilitation services to assist disabled employees in
returning to gainful employment consistent with their physical, emotional and
educational abilities. An employee with extended disability may be considered for
rehabilitation services if requested by the attending physician, the employee or
agency personnel. In addition, OWCP will routinely consider a case for rehabilitation
services if the agency cannot reemploy the employee.
                                         10
 For Assisted Reemployment, OWCP may reimburse an employer who was not the
 employer at the time of injury for part of the salary of a reemployed worker. This
 wage subsidy is intended to assist in reemploying workers who could not be placed
 with their former employers. It is available to other Federal employers as well as to
 State and local governments and the private sector.

 GPO has a few employees who have gone through vocational rehabilitation services
 but WCS informed us that they were unaware of anyone in the Assisted
 Reemployment program.

 Select Examples of Missed Opportunities to Bring Claimants Back to Work

 While we did not conduct a review of claimant files as part of our audit, we noted
 four claimants that had been classified as eligible to return work, yet had not. Based
 on our review of their files, GPO could not demonstrate that business units
 maintained contact with the four claimants. We noted that WCS attempted to return
 the four claimants back to work but was unsuccessful. We calculated the amount of
 compensation paid to the claimants based on the date the claimants could return to
 work. The total amount paid to these four individuals was $267,161 through
 September 30, 2012. See table below.

 Table 1: Detailed Calculation of Select Claimants Eligible to Return to Work

                                                                Total Days on
                 Date         Date       Compensation Paid        Worker's
               Entered     Eligible to     Since Eligible to    Compensation    Compensation
                FECA       Return to       Return to Work        Status thru     Received to
               Program       Work         thru 9/30/2012 4       9/30/2012          Date
Claimant 1    5/14/2009   3/30/2010          $67,061.34             1,235        $99,845.04
Claimant 2     4/2/2003   4/20/2009           97,644.31             3,469        336,449.23
Claimant 3     6/6/2002   7/21/2010           55,964.32             3,773        328,020.51
Claimant 4    6/26/2002   9/20/2010           46,491.80             3,749        230,011.40
  Total                                     $267,161.77                         $994,326.18



 Formal Training Needed to Strengthen Business Units Understanding of FECA

 GPO has not developed a formal training program for business unit supervisors who
 assist with monitor claimants. We believe ensuring personnel, such as supervisors,
 understand their responsibilities under FECA and GPO’s process may strengthen
 monitoring claimants and return claimant back to work in a timely manner.




 4
     Total excludes medical expenses.
                                                11
Business unit supervisors should be consistently reviewing chargeback reports and
program-wide monitoring reports in order to identify opportunity to return
claimant back to work. According to the GPO Directive, supervisors and managers
are responsible for maintaining contact with employees, identifying appropriate
light duty assignments and generally work to return employees to work as soon as
possible. Training for supervisors and managers is available through the OWCP and
can be tailored to the Agency’s needs. Without formal training, business unit
supervisors may not process and manage FECA claimants return to work timely.

Expand Use of Information Technology Could Strengthen Operations

GPO does not take advantage of the Employees’ Compensation Operations and
Management Portal which is a free on-line software application developed by OWCP
to assist with FECA claims processing and tracking. The system permits claimants,
representatives, employing agency staff and medical providers to upload documents
directly into existing OWCP files through the internet. We were told the software
allows agencies to file claim forms electronically, perform monitoring activities such
as data mining, and perform trend analysis. The system enables Claims Examiners
to view the new information within hours of submission. As a result of an update
made in June 2011 to federal regulations, all federal employers are required to offer
electronic filing capabilities to their employees by December 31, 2012.

RECOMMENDATIONS

We recommend the Chief Human Capital Officer further strengthen FECA operations
by:

1. Developing procedures and a standardized program-wide monitoring process to
   routinely monitor adherence to FECA requirements such as: : (1) updating the
   marital status of claimants, (2)evaluating continued eligibility of the claimants
   dependents, (3) seeking opportunities to place claimants on a modified, limited,
   or light duty assignment, (4) receiving medical updates on a regular basis, (5)
   obtaining second medical opinions where the record indicates the claimant has
   some potential of eventually returning to work (6) responding to requests for
   vocational training, and (7) requesting employees be included in OWCP’s
   Assisted Reemployment program.

Management’s Response

GPO’s management concurred with the recommendation. The GPO OWCP staff will
develop a data base using excel to track and/or monitor claimants marital status,
dependents and medical status. The data base will be completed by March 1, 2013.
Major updates will be performed on a quarterly basis in coordination with the
receipt of the Chargeback report.

                                         12
A second database will be developed to track opportunities to return employees to
work including vocational training. They will look into the use of the Assisted
Reemployment Program.

2. Strengthen business unit supervisors understanding of their responsibilities
   under FECA by developing and implementing a formal training program.

Management’s Response

GPO’s management concurred with the recommendation. They will conduct
quarterly briefings and/or Q&A sessions for all managers. They will also work on
developing formal training. A schedule of briefings and Q&A sessions will be
complete by April 5, 2013.

3. Expanding the use of information technology to administer the program such as
   the use of DOL’s Employees’ Compensation Operations and Management Portal
   electronic software.

Management’s Response

GPO’s management concurred with the recommendation. DOL presented a briefing
on January 7, 2013. The Memorandum of Understanding between GPO and DOL will
be signed and the necessary steps for obtaining the system performed. They expect
the system to be operational by April 5, 2013.

Evaluation of Managements Response

Management’s planned actions are responsive to the recommendations. The
recommendations are resolved and will remain open until planned action is
complete.




                                        13
Appendix A - Objectives, Scope, and Methodology

We performed fieldwork from May 2012 through October 2012 at the GPO Central
Office in Washington, D.C. We conducted the audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence that will provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Objectives

The objective of our audit was to assess GPO’s monitoring of key aspects of its
operations related to returning claimants to work. We also reviewed training of
personnel, such as effort to ensure supervisors understand their responsibilities
under FECA and the reliance of information technology to administer the program.

Scope and Methodology

To accomplish our objective, we analyzed the DOL chargeback report as of March
2012 and program information as of September 2012, at the GPO Central Office in
Washington, D.C. At the time of our review, the March 2012 DOL chargeback report
was most current report available. We conducted interviews with employees in the
WCS pertaining to monitoring, training, and the use of information technology in
support of the administration of the FECA program. We reviewed related laws,
regulations, and GPO management directives. We reviewed documents and reports
pertaining to monitoring, such as program-wide status related to (1) marital status,
(2) eligibility of dependents, (3) modified, limited, and light duty assessments, (4)
medical updates, (5) medical second opinions, (6) chargebacks, (7) vocational
training, and (8) assisted reemployment.. We reviewed training records and
information technology used to support the administration of GPO’s FECA program.
We did not test or verify information contained in individual case files. We plan to
perform case file reviews in future audits of GPO’s administration of its FECA
operations.

Management Controls Reviewed

We determined that the following internal controls were relevant to our audit
objective:

Program Operations – Policies and procedures the GPO management implemented
to reasonably ensure that processes met GPO’s objectives.




                                         14
Appendix A - Objectives, Scope, and Methodology

Validity and Reliability of Data – Policies and procedures that management has
implemented to reasonably ensure that valid and reliable data are obtained,
maintained, and fairly disclosed in reports.

Compliance with Laws and Regulations – Policies and procedures that management
has implemented to reasonably ensure that resource use is consistent with laws and
regulations.

The details of our examination of management controls, the results of our
examination, and noted management control deficiencies are contained in the
report narrative. Implementing the recommendations in this report should improve
those management control deficiencies.

Computer-generated data

We did not rely on any computer-processed data from any GPO computer system.




                                        15
Appendix B – Management’s Response




                             16
Appendix B – Management’s Response




                             17
Appendix B – Management’s Response




                             18
Appendix B – Management’s Response




                             19
Appendix C - Status of Recommendations


Recommendation        Resolved   Unresolved   Open/ECD*       Closed
      1                  x                    March 1, and
                                              April 5, 2013
         2                x                   April 5, 2013
         3                x                   April 5, 2013

*Estimated Completion Date.




                                    20
Appendix D - Report Distribution

Acting Public Printer
Assistant Public Printer, Operations
General Counsel




                                       21
Major Contributors to the Report

Patricia M. Bach, Senior Auditor




                                   22
